                U. S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF INSPECTOR GENERAL




                 FLASH REPORT




                                             BLM Photo

   ENVIRONMENTAL, HEALTH AND SAFETY ISSUES AT
         BUREAU OF LAND MANAGEMENT
           RIDGECREST FIELD OFFICE
           RAND MINING DISTRICT, CA


C-IN-BLM-0012-2007                    September 2007
                                 Aerial Photo of Rand Mining District




    Mine Tailings Pile                                                                Approx
                                                                                      North


                     Randsburg                   Johannesburg




                                                                                    Red
                                                                                  Mountain




                                                                Kelly Mine      US Highway 395

                          Yellow Aster
                          Mine Complex

                                                                                       BLM Photo


Soil samples collected near residential properties in February 2006 identified “very high”
risks from levels of arsenic that, according to BLM, exceed EPA’s cleanup guidelines 2 by
up to 4,700 times. As a result, BLM implemented a Time-Critical Removal Action under
the CERCLA. BLM prepared an Action Memorandum in August 2006 and a Project
Management Plan that identified short term proposed actions for mitigating the site.
BLM intends to begin a CERCLA Remedial Investigation/Feasibility Study in 2007 to
identify needed long-term mitigation actions in the District.

While BLM will not know the true cost of this project for some years, BLM officials
have estimated that it could exceed $170 million. The project is one of the largest
environmental clean-up projects ever managed by BLM. To put the project’s size in
perspective, BLM has a total annual Abandoned Mine Lands (AML) budget of about $10
million which is allocated from BLM’s Soil, Air & Water and Hazardous Materials
Management programs.
2
 The levels exceeded EPA Region IX’s Preliminary Remediation Goals (PRGs), which are used as
guidelines for evaluating and cleaning up contaminated sites.
                                                    2
OIG OBSERVATIONS

We conducted two site visits to BLM’s Ridgecrest Field Office and the District in March
and May 2007. We interviewed BLM field office staff and local residents about the
project’s history and management and the physical and environmental hazards in the
area. We also visited the BLM California State Office in March 2007 and interviewed
staff there about the District.

Environmental hazards in the District include high levels of arsenic contamination in over
3,000 acres of mine tailings and 500,000 tons of additional mining related waste rock.
This material is widely dispersed across the District and has potential health risks to the
approximate 400 residents of the District, the thousands of OHV visitors that visit the
region, as well as BLM staff that visit the site to monitor the project.

We reviewed the CERCLA Action Memorandum and the Project Management Plan and
noted that actions scheduled for FY 2007 included addressing physical threats, fencing of
mine features, installation of air monitoring stations and initiation of a site-wide
community relations plan.

EXPOSURE TO RESIDENTS

The area’s dry climate and winds routinely expose residents to arsenic-laden dust. In
addition, some residential properties are located adjacent to contaminated tailings piles.
At the time of our visit, BLM had not sampled all potentially affected residential
properties to determine their levels of contamination. In August, we were informed that
BLM had sampled 20 residential properties. However, the test results were not yet
available. We concluded that BLM has not taken sufficient steps to identify the extent of
contamination on residential properties.

During the 18 months since the project began, BLM has conducted only two public
meetings; BLM has not developed and implemented a Community Relations Plan as
called for in its Project Management Plan. CERCLA requires BLM to give the public
prompt, accurate information on the nature of hazards and activities planned to mitigate
these hazards. We conducted interviews with residents who complained that they were
not being kept informed of project activities. In addition, the last public meeting was in
October 2006. We concluded that BLM needs to be more proactive in its community
relations efforts.

Additionally, we are concerned that BLM has not installed air monitoring equipment to
measure arsenic exposure levels and has not fenced hazardous mine sites and tailings as
planned in the Action Memorandum.




                                             3
                 Mine Tailings
                                                                           Contamination in
                                                                           Resident’s Yard




               Resident’s Yard




                                    OIG Photo                                         BLM Photo


EXPOSURE TO OHV USERS

The District is a popular destination for OHV users. Near Randsburg, Route 110, a BLM
authorized trail, crossed a 60 acre highly contaminated mine tailings pile. As recently as
April 2007, the trail was used by many recreational OHV enthusiasts. At the time of our
visit, BLM had taken no action to close the portion of the trail that crossed the
contaminated tailings pile or to install fences along Route 110 to restrict access to highly
contaminated areas. OHV users could potentially be exposed to significant levels of
arsenic. Subsequent to our visit, we were informed that BLM rerouted Route 110 and
installed a fence to prevent OHV users from using the closed portion of the trail that
previously crossed the tailings pile. However, BLM has not installed fencing around the
entire tailings pile to prevent OHV vehicles from accessing other parts of the tailings
adjacent to the trail and has not installed signs warning of the specific dangers associated
with the arsenic contamination.



   OHV Rider




                                    BLM Photo
                                                                                 BLM Photo




                                                4
                              BLM Rt. 110 Before and After OIG Visit




                                                             BLM Rt 110




                                                                          BLM Photo




                                                            Gate and Fence
                                                            Blocking Rt 110




                                                                          BLM Photo


EXPOSURE TO EMPLOYEES

BLM employees who visit the District also risk exposure to high arsenic contamination
levels that could potentially affect their health. BLM prepared a Site Safety and Health
Plan to protect employees and subcontractors from potential hazards in the District that
included medical monitoring of project personnel and air monitoring during work
activities. However, this plan has not been fully implemented.
                                             5
CONCLUSION

The Bureau of Land Management needs to take timely action to protect the health and safety of
the public and employees from exposure to arsenic and other mining hazards in the Rand
Mining District. While BLM has prepared planning documents, we are concerned that planned
actions have not been fully implemented. For example, many actions planned for FY 2007
have not yet been implemented.
RECOMMENDATIONS

   To protect the public and employees from hazards in the Rand Mining District, we
   recommend the Assistant Secretary, Land and Minerals direct BLM to:
       1. Implement community relations activities, consistent with the Project Management
          Plan. These activities should include providing written notification to all District
          residents alerting them of the arsenic contamination and conducting periodic public
          education and outreach activities.
       2. Reduce or eliminate existing arsenic exposure to recreational users consistent with
          the Project Management Plan. Actions should include promptly installing fencing
          around the entire tailings pile accessible from Route 110 to restrict access to OHV
          users and post signs warning of the arsenic contamination.
       3. Promptly install fencing around hazardous mine features consistent with the Action
          Memorandum.
       4. Promptly install air monitoring systems consistent with the Action Memorandum
          and Project Management Plan.
       5. Consult with BLM’s health and safety office and/or the Department’s Office of
          Occupational Health and Safety, the Office of the Solicitor, and the Department’s
          environmental experts to promptly determine and implement the appropriate testing
          and monitoring required for privately owned properties located within the Rand
          Mining District for use in Remedial Investigation/Feasibility Study process.
       6. Implement medical monitoring and air monitoring of work activities consistent with
          the Site Health and Safety Plan.

This flash report is being issued to notify both Departmental and bureau management of
serious health and safety issues that we found so that immediate action can be taken. We
visited the District as part of our audit to determine if the Department of the Interior and its
bureaus have adequate AML programs to protect public health and safety. While we have not
completed this audit, we wanted to bring these serious health and safety issues to your
attention. Our Department-wide audit report will address some of the more comprehensive
factors that contributed to these health and safety deficiencies. The Department-wide audit is
being done in accordance with Government Auditing Standards issued by the Comptroller
General of the United States.




                                             6
Please provide us with your written comments to this report and a summary of actions taken or
planned by October 11, 2007. Please address your response to:
                             Ms. Anne L. Richards
                      Assistant Inspector General for Audits
                        U.S. Department of the Interior
                           Office of Inspector General
                          1849 C Street, NW, MS 5341
                             Washington, D.C. 20240
If you have comments or questions about this report, please contact me at
(202) 208-5745.




                                            7
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
